<html>
<title> - ISIL IN AMERICA: DOMESTIC TERROR AND RADICALIZATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                           ISIL IN AMERICA: 
                   DOMESTIC TERROR AND RADICALIZATION

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2015

                               __________

                            Serial No. 114-6

                               __________

         Printed for the use of the Committee on the Judiciary

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://judiciary.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-527 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     
      
      
      
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUUL LABRADOR, Idaho                HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            PEDRO R. PIERLUISI, Puerto Rico
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TREY GOWDY, South Carolina           KAREN BASS, California
RAUUL LABRADOR, Idaho                CEDRIC RICHMOND, Louisiana
KEN BUCK, Colorado
MIKE BISHOP, Michigan

                     Caroline Lynch, Chief Counsel
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                            C O N T E N T S

                              ----------                              

                           FEBRUARY 26, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations.................................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Crime, Terrorism, Homeland Security, and Investigations........     2
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary    16
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................    17

                               WITNESSES

Michael Steinbach, Assistant Director, Federal Bureau of 
  Investigation
  Oral Testimony.................................................    26
  Prepared Statement.............................................    29
Richard W. Stanek, Sheriff, Hennepin County, Minneapolis, MN
  Oral Testimony.................................................    33
  Prepared Statement.............................................    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

H.R. 48, the ``No Fly for Foreign Fighters Act''.................     5
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Crime, Terrorism, Homeland Security, 
  and Investigations.............................................     9
Prepared Statement of Rodney Monroe, Chief of Police, Charlotte 
  Mecklenburg Police Department..................................    20

 
                           ISIL IN AMERICA: 
                   DOMESTIC TERROR AND RADICALIZATION

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2015

                        House of Representatives

                   Subcommittee on Crime, Terrorism, 
                 Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:19 a.m., in 
room 2141, Rayburn Office Building, the Honorable F. James 
Sensenbrenner, (Chairman of the Subcommittee) presiding.
    Present: Representatives Sensenbrenner, Goodlatte, Jackson 
Lee, Conyers, Gohmert, Chabot, Poe, Chu, Bass, Labrador, 
Richmond, Buck, and Bishop.
    Staff Present: (Majority) Allison Halataei, Parliamentarian 
& General Counsel; Caroline Lynch, Subcommittee Chief Counsel; 
Jason Herring, Counsel; Alicia Church, Clerk; (Minority) Aaron 
Hiller, Counsel; and Veronica Eligan, Professional Staff 
Member.
    Mr. Sensenbrenner. The Subcommittee will come to order. 
Without objection, the Chair will be authorized to declare 
recesses during votes in the House. I will yield myself 5 
minutes for an opening statement.
    Today's hearing will examine the Islamic State of Iraq and 
the Levant, or ISIL, and the domestic terrorism threats posed 
by these terrorists. And while ISIL seems to have reared its 
head only in the last 18 months, a closer look quickly reveals 
ISIL to be an old foe; one with whom the United States has done 
battle for more than a decade. Before the group declared itself 
a global caliphate and adopted its current name, it was merely 
the Islamic State of Iraq. During war, members of this same 
group were among the most prolific perpetrators of attacks upon 
American troops and our partners in Iraq.
    The procession of name changes; however, has made no 
difference at ISIL's commitment to harm Americans. Earlier this 
month, we were all reminded of this when we learned of Kayla 
Mueller's death after 18 months of ISIL captivity. The 26-year-
old from Prescott, Arizona traveled to Syria with Doctors 
Without Borders to help alleviate the suffering brought there 
by Islamic extremism. Distance does not make us in the United 
States immune from ISIL's destructive ideology. From far beyond 
the battlefields of Syria and Iraq comes funding and support 
for this group's call to arms against the West, and the 
domestic threat is not limited to New York City and our 
Nation's capital.
    Two weeks ago in St. Louis, five Bosnians were charged with 
providing material support to ISIL. The suspects allegedly 
provided weapons, military uniforms, and equipment and money to 
a sixth Bosnian who left the United States in 2013 to join ISIL 
and Syria. Alarmingly, all six individuals are natives of 
Bosnia who immigrated to the United States. Three are now 
naturalized citizens and the remaining three have either 
refugee or legal residence status. But the threats posed by 
ISIL's hateful ideology are not purely external. Inciting 
Americans to join their ranks or to ally their selves with 
ISIL's mission is a pivotal component in their campaign of 
violence against America and its people.
    Last month, a Cincinnati man named Christopher Lee Cornell 
was arrested at a gun shop purchasing multiple weapons. He is 
alleged to have been collecting for an attack here in 
Washington, D.C. Mr. Cornell became an adherent of radical 
Islam on the Internet having adopted the Jihadi world of view. 
He aimed to gun down Members of Congress and government 
employees for the glory of ISIL, a terrorist group on the other 
side of the world with whom he had no connection except 
devotion to this same perverted Islamist ideology.
    As FBI Director Comey has pointed out, these are not 
isolated incidents. ISIL's connections are being investigated 
in virtually every part of the United States, but on the heels 
of the St. Louis and Cincinnati arrests, in just days after 
ISIL released a video depicting the beheading of 21 Egyptian 
Christians in Libya, President Obama convened a summit on 
countering violent extremism. A summit that failed to include 
the FBI Director James Comey and refused to acknowledge that 
ISIL and other terrorist organizations are motivated by radical 
Islam.
    As one commentator noted, the summit was strangely 
sympathetic to Islamic sensibilities in grievances at the very 
time when rampaging Jihadists, while quoting Islamic scripture, 
are barbarically slaughtering their enemies and conducting a 
pogrom against Christians.
    The President's unwillingness to acknowledge the true 
motives of these terrorists, not only embolden stir campaigns 
of terror, it makes Americans less safe. Meanwhile, ISIL 
continues its march across western Iraq and continues to spew 
its propaganda of hatred and murder across the globe. 
Yesterday, three New York City residents, two from Uzbekistan 
and one from Kazakhstan, were arrested for plotting to travel 
to Syria to join ISIL and ``wage jihad.'' According to the 
criminal complaint, one of these men stated he would kill 
President Obama if he had the opportunity to do so.
    The witnesses today will hopefully shed light on the 
escalating domestic terror threat posed by ISIL and those who 
would ally themselves with Islamic extremism.
    It is now my pleasure to recognize for her opening 
statement, Ranking Member of the Subcommittee, the gentle woman 
from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Good morning.
    Thank you so very much, Mr. Chairman, and thank you for 
holding this hearing. We are finding so much common ground as 
we try to include issues of criminal justice reform, but also 
securing the domestic tranquility of this Nation.
    This hearing is involving ISIL in America, domestic terror, 
and radicalization. And so, it is important to note that this 
Islamic State is a brutal terrorist organization, it has 
murdered thousands of civilians including four United States 
citizens, it threatens to topple regional movements, it has, as 
its stated goal, the religious and ethnic cleansing of the 
areas under its control. But I think it is important to note, 
as has been said by our Commander and Chief, United States is 
not at war with Islam but it is the contorted, disjointed and 
ludicrous interpretation of those who simply want to be violent 
and vile and kill people.
    And even if it cannot strike the United States homeland 
directly as it has been alleged, ISIL clearly hopes to inspire 
Americans to act against us from within. As evidence, the 
Chairman has already noted, there are three would be ISIL 
actors caught and apprehended by the FBI, in which I thank you 
so very much, two at John F. Kennedy airport where millions 
travel every day, as do millions every day in the United 
States; grandmothers going to see grandchildren, College 
students going home, business persons seeking to participate in 
the capitalistic system of this Nation, or people simply going 
to vacation maybe even in the Nation's capitol, the cradle of 
democracy for this Nation.
    So while I am grateful that the United States is leading a 
multinational coalition to degrade and ultimately destroy 
Islamic State, I am certain that we cannot bomb our way out of 
this problem. In my view, the domestic threat posed by ISIL and 
other terrorist organization must be met on three fronts.
    First, we must engage in real outreach to the communities 
most at risk for radicalization. By outreach, I do not mean the 
past practices of certain police departments that deployed 
undercover agents into mosques and community centers. Maybe the 
only approach, we know that is the approach that is used when 
you are investigating. Nor do I mean that the heavy-handed use 
of informants within certain immigrant communities. These 
tactics have been misdirected and costly.
    Countering violent extremism should not ever be the pretext 
to profiling a United States person on the base of race, 
religion, or culture. However, we know that intelligence 
gathering is important. And so, I certainly believe that that 
is a strong element of making sure that those who want to do us 
harm do not do so.
    But last week, I had the privilege of attending the White 
House Summit on Countering Violent Extremism. At that event, 
President Obama observed terrorist groups like al-Qaeda and 
ISIL deliberately target their propaganda in the hopes of 
reaching and brainwashing young Muslims, especially those who 
may be disillusioned or wrestling with their identity. The 
president is right: ISIL has proven adept at using social media 
to spread its message. The United States in near time 
calculates that the group posts 90,000 tweets and social media 
responses every day.
    How do we combat this propaganda? By empowering local 
communities, teachers, faith communities, and police officers 
alike to talk openly and honestly about what ISIL is, what it 
threatens to do, and how it twists the basic threats of Islam 
to service its own purposes. I am particularly interested in 
how we can engage with segments of these communities that often 
go overlooked. For example, women and young people who are not 
always invited to participate in the dialogue that have the 
power to spread a positive message where police officers and 
government spokespersons cannot.
    Secondly, must maintain vigilance at our borders. To date, 
to our knowledge about 150 United States persons have traveled 
to Syria or Iraq to fight along side ISIL, the new surf front 
and the like. There are known instances of a U.S. persons 
attempting to return from the region after participating in 
that conflict.
    The more immediate threat, of course, is the thousands of 
individuals from our allied Nations in Europe, Northern Africa, 
and Middle East who have traveled to Syria undetected, gained 
terrorist training or military experience, that may now seek to 
travel. This is not an idle concern. The national contraries 
and system estimates that 20,000 individuals from 90 countries 
have traveled to fight in Syria.
    Mr. Chairman, I have introduced H.R. 48, the ``No Fly for 
Foreign Fighters Act'' which I ask unanimous consent to enter 
into the record?
    Mr. Sensenbrenner. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Ms. Jackson Lee. Which would require the government to 
review both terrorist screening database and the terrorist 
watch list for a complete list with respect to any of these 
foreign fighters and to report back to Congress with the 
results within 90 days.
    Finally, we must fully fund, Mr. Chairman, the Department 
of Homeland Security without delay. The Islamic State is our 
focus today but is only one threat in an increasing complex 
landscape.
    I would hope that we would again, as I know that the 
Chairman and myself have worked together with Members of the 
Judiciary Committee, that we enter into an effort to protect 
national security over political security. And I say that to 
reinforce the final words I want to offer of the Honorable 
Susan E. Spaulding who is the Under Secretary of National 
Protection and Programs Director of the U.S. Department of 
Homeland Security. Just her words in terms of the whole 
combination of threat and cybersecurity threats. ``As a nation, 
we are faced with pervasive cyber threats. Malicious actors, 
including those at nation-state level, are motivated by a 
variety of reasons that include espionage, political and 
ideological beliefs, and financial gain. Increasingly, state, 
local, tribal, and territorial networks are experiencing cyber 
activity of a sophistication level similar to that seen on 
Federal networks and has probably not been seen before.''
    This hearing is a vital hearing because it squarely places 
us in the role of fighting terrorism. And I thank the Chairman 
very much and I thank the witnesses for their presence here 
today.
    I yield back, Mr. Chairman.
    Mr. Sensenbrenner. Does the gentlewoman wish to include the 
statement that she just referred to in the record?
    Ms. Jackson Lee. I will ask unanimous consent, Mr. 
Chairman.
    Mr. Sensenbrenner. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Ms. Jackson Lee. Thank you.
    Mr. Sensenbrenner. The Chair recognizes the Chair of the 
full Committee, gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Chairman Sensenbrenner.
    With increasing regularity, Americans are being witnessed 
to the depravity of terrorists claiming the mantle of the 
Islamic State of Iraq and the Levant, or ISIL. Relatively 
unknown to many in America just a few years ago, ISIL relishes 
in their own barbarity with videos depicting shootings, 
beheadings, and the burning alive of unarmed prisoners.
    Recently, ISIL claimed to mark the occasion of conquering a 
small town in western Iraq by burning 45 of its inhabitants at 
the stake. The group's history gives us little reason to 
dismiss this as hyperbole. And ISIL's savagery is limited no 
more by geography than by human decency. Earlier this month in 
Libya, hundreds of miles from the group's claimed territory, 
ISIL terrorists rounded up and videotaped themselves 
decapitating 21 Egyptian Christians who refused to renounce 
Christ and accept ISIL as their new masters.
    Americans are not mere observers of ISIL's atrocities. Our 
people and our homeland are intimate parts of ISIL's plans. The 
organization's leadership had attacks on America and the rest 
of the West. They have solicited young people to renounce their 
lives and join them in their perverted war. Unfortunately, even 
deep in the American heartland, these calls have found some 
receptive ears.
    Speaking in Jackson, Mississippi earlier this month, FBI 
Director James Comey emphasized that city is not beyond ISIL's 
reach. He urged law enforcement and American citizens 
everywhere to be vigilant and not dismiss the domestic threat 
from extremism. Just yesterday, Director Comey disclosed that 
the Bureau is investigating suspected supporters of ISIL in 
every U.S. state.
    Director Comey's concerns are borne out by the facts. The 
last several years have seen three distinct threats to the 
homeland from Levantine terrorism. The first is the recruitment 
of young Americans into the ISIL fold. In addition to thousands 
of Europeans, over 150 Americans have been discovered joining 
in the fighting in the Middle East or attempting to do so.
    Those who have taken up the ISIL banner fit no social, 
ethnic, or even gender profile. Douglas McAuthur McCain grew up 
in Chicago and Minneapolis with a close-knit family. He was a 
popular joker in high school and a devoted fan of the Chicago 
Bulls. Last summer, a tattoo of his was used to confirm him as 
the first American to be killed fighting for the terrorists in 
Syria.
    Young women are also being recruited, lured to leave their 
families and become Jihad wives of ISIL fighters. Shannon 
Conley, a teenager from Arvada, Colorado was arrested at Denver 
International Airport last April in route to her arranged 
marriage with a 32-year old Tunisian Jihadi. She had changed 
her Facebook status to ``Slave of Allah'' and told FBI agents 
she looked forward to using the skills she learned in the U.S. 
Army Explorers program to nurse wounded ISIL fighters.
    If and when these Americans choose to return to the United 
States from the battlefields of a brutal civil war, it will be 
difficult to stop them reentering. It will be even more 
difficult to know what they are capable of. We know, for 
example, that last month's Charlie Hebdo shooters had traveled 
to the Middle East and received training from Jihadi groups.
    The second threat, perhaps even more dangerous, requires no 
travel beyond the nearest computer. The Western World has been 
plagued by a rash of attacks by self-radicalized lone-wolf 
terrorists who have claimed allegiance to ISIL. Last year, 
Canada suffered two serious terrorist attacks by ISIL adherents 
who had never gotten closer to the group than their Internet 
message boards. One man drove his car into a group of Canadian 
Forces soldiers; the other murdered a soldier before attempting 
to storm the Canadian Parliament.
    In Australia, a man took 18 people hostage at a chocolate 
shop, killing two of them. In Belgium, a man shot dead four 
people at a Jewish Museum. All of these terrorist committed 
their attacks under the banner of ISIL.
    Finally, we must not forget that the core group of ISIL, 
half a world away, plots to attack us directly here in the 
homeland. This last month, ISIL's central command reiterated 
their intention to attack American policemen, soldiers, and 
members of our intelligence community.
    I look forward to hearing from our witnesses today about 
these threats, how they are evolving domestically, and the 
challenges our intelligence and law enforcement officials face 
in thwarting these violent terrorist and those who pledge 
allegiance to them here in our homeland. I also hope to hear 
how Congress and this Committee can best ensure that our 
country is prepared to stop these threats.
    Thank you, Mr. Chairman.
    Mr. Sensenbrenner. Time of the gentleman has expired.
    The Chair now recognizes for his opening statement, the 
Ranking Member and Chairman emeritus of the full Committee, the 
gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Sensenbrenner. And to all 
of my colleagues here, particularly those who have made opening 
statements.
    I am deeply concerned about the rise of the Islamic State 
in Iraq and the Levant, ISIL. It is a grave regional threat 
operating from Anbar province and Western Iraq, it seized 
territory from Baghdad to Aleppo, and continues to press north 
into Kurdish territory. In more familiar terms, ISIL now 
controls an area larger than the United Kingdom.
    Along the way, it has directed horrific violence at 
thousands of civilians, particularly ethnic and religious 
minorities, and ISIL has also executed hostages including four 
United States citizens in barbaric and public fashion. So we 
should not underestimate ISIL's murderous intent nor its 
ability to inspire others to do us harm. But we've learned much 
from the past decade of fighting radical extremists and it 
seems important today to apply some of those lessons in our 
discussion.
    The first and most simple lesson is don't panic. As of this 
morning, the Department of Homeland Security is unaware of any 
specific credible threat to the United States homeland from 
ISIL. The National Counterterrorism Center confirms that 
assessment noting further that any threat to the U.S. homeland 
from these types of extremists is likely to be limited in scope 
and in scale. I do not suggest that we in any way ignore ISIL 
or the suffering it has caused. No way. But I do point out only 
that the group's ability to strike directly at the United 
States appears to be limited and that our reaction to the home 
front should be measured and appropriate.
    The rise of the Islamic State is not an excuse for domestic 
law enforcement to stigmatize American Muslims. It does not 
legitimatize tactics that have isolated and alienated the 
communities whose help we need most. Nor does the threat of 
ISIL justify the government's continued use of Section 215 of 
the U.S.A. Patriot Act to conduct mass surveillance on law-
abiding citizens. The mass telephone metadata program has never 
disrupted a terrorist plot, does not extend to the new media 
formats favored by ISIL, and must be brought to an end without 
delay.
    We have better tools at our disposal which leads me to this 
consideration: Our best hope for countering the threat of 
radicalization at home is community engagement at the local 
level. We haven't evidence of a direct threat from ISIL on the 
U.S. homeland but as my colleagues have noted the group has an 
aggressive social medial presence. Their propaganda targets the 
most isolated elements of our society. We know what works to 
counter this messaging. Local, state, and Federal law 
enforcement must build partnerships with teachers, clergy, and 
other community leaders. These efforts must clearly preserve 
religious exercise and freedom of expression.
    Once we have established trust and open lines of 
communication between police and the communities most at risk 
for radicalization, we win on two fronts. We are better able to 
identify potential threats before they go dangerous and 
community leaders have enlisted a powerful partner in 
countering the twisted rhetoric of ISIL and others like it.
    I believe the witnesses here today will testify to the 
effectiveness of this basic approach and I look forward to 
further discussion with them on the matter. And perhaps most 
pressing at this late hour, we must fully fund the Department 
of Homeland Security.
    Mr. Chairman, I believe it comes down to a question of 
priorities. We must preserve the capability to track foreign 
fighters before they attempt to enter the United States. We 
must keep the United States Air Marshalls in the sky and we 
must continue to coordinate with our agents on the front lines 
of homeland security, the transportation Safety Administration, 
the United States Customs and Border Patrol and our own 
partners in state, local and tribal law enforcement.
    Some of these functions may continue in the event of a 
shutdown but many will not. Most of the department's leadership 
team will be furloughed. Federal support to state and local 
initiatives will terminate, none of the officers who must show 
up to work will necessarily be paid. And so, my colleagues, 
there was a time when I believed that we could find common 
ground on a comprehensive immigration reform. I still believe 
that. If Speaker Boehner would allow the measure to come to the 
floor, the bill that has sat on his desk for more than 500 days 
would receive majority support in the House. But even if we 
must disagree for now on the urgency of immigration reform, 
surely we can agree that we must not compromise our national 
security in a futile effort to score political points against 
the president.
    Whatever you think of the underlying policy, a decision to 
defund the Department of Homeland Security simply will not 
result in the president's reversing his actions on immigration.
    I agree with you, Mr. Chairman, that the threat posed by 
ISIL to the homeland is real. I hope that our conversation 
today will convince my colleagues to prioritize our security 
over an unrelated political spat and fully fund DHS, Department 
of Homeland Security, without delay.
    I too join in welcoming our witnesses. I thank the Chairman 
and yield back.
    Mr. Sensenbrenner. The gentleman's time has expired long 
ago.
    Without objection, other Member's opening statements will 
be made apart of the record.
    Today we have a very distinguished panel of witnesses. I 
will begin by swearing in our witnesses before introducing 
them.
    If you would please rise.
    Do you solemnly swear that the testimony that you are about 
give to this Committee will be the truth, the whole truth, and 
nothing but the truth so help you God?
    Let the record show that all of the witnesses have answered 
in the affirmative.
    Charlotte Police Chief, Rodney Monroe, is unable to be here 
today due to the weather and his written testimony will be 
entered into the record without objection.
    [The prepared statement of Mr. Monroe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Sensenbrenner. Michael B. Steinbach is the Assistant 
Director of the Counter Terrorism Division. Mr. Steinbach began 
at the FBI in the Chicago Division. He has served as head of 
the Violent Crimes Taskforce at the FBI's Washington Field 
Office, the Assistant Section Chief for the International 
Terrorism Operations Section of the Counterterrorism Division, 
and as Deputy Director for Law Enforcement Services at the CIES 
Counterterrorism Center. He was then appointed as Special 
Assistant to the Associate Deputy Director at FBI Headquarters. 
Mr. Steinbach has also served as the Special Agent-in-Charge of 
the FBI's Jacksonville Division and later as the Special Agent-
in-Charge of the Miami Division.
    Sorry you are coming to the snowy parts and you are at the 
end of your career.
    Mr. Steinbach has earned a Bachelor's of Science Degree in 
aerospace engineering from the U.S. Naval Academy in 1988 after 
which he served as a Naval Aviator in the U.S. Navy.
    Richard W. Stanek, who is familiar as I am with weather 
like this, is the Sheriff of Hennepin County, Minnesota. In 
this role he created a new crime fighting unit at the Sheriff's 
Office to serve law enforcement agencies and communities 
county-wide. Sheriff Stanek began his career at the Minneapolis 
Police Department, he rose through the ranks from patrol 
officer to commander of criminal investigations. While a police 
officer he was elected five times to the Minnesota legislature 
where he authored the State's DWI felony law. In 2003, the 
governor appointed him Commissioner of Public Safety and 
Director of Homeland Security for Minnesota. Sheriff Stanek 
earned a criminal justice degree from the University of 
Minnesota and a Master's Degree in public administration from 
Hamline University.
    You are all familiar with the green, yellow, and red lights 
in front of you. I would ask that you limit your testimony to a 
5-minute summary after which the Committee Members will ask 
questions under the 5-minute rule.
    Mr. Steinbach, you are first.

  TESTIMONY OF MICHAEL STEINBACH, ASSISTANT DIRECTOR, FEDERAL 
                    BUREAU OF INVESTIGATION

    Mr. Steinbach. Thank you, sir.
    Good morning, Chairman Sensenbrenner, Ranking Member Lee, 
and Members of the Committee. It is also good to see Ranking 
Member Conyers present and I appreciate Chairman Goodlatte's 
opening remarks.
    Thank you for the opportunity to appear before you today to 
discuss the dynamic threat of foreign fighters traveling in 
support of the Islamic State of Iraq and the Levant, commonly 
known as ISIL, and the continued threat to the United States 
posed by homegrown violent extremists. These threats remain one 
of the biggest priorities for the FBI, the intelligence 
community, and our foreign, state, and local partners. It is 
the blending of the homegrown violent extremism with the 
foreign fighter ideology which is today's latest adaptation of 
the threat. I am pleased to be here today with a strong state 
and local partner, Hennepin County Sheriff, Richard Stanek.
    Conflicts in Syria and Iraq are currently the most 
attractive overseas threats for Western-based extremists who 
want to engage in violence. We estimate upwards of 150 
Americans have traveled or attempted to travel to Syria. While 
this number is small in comparison to the number of European 
travelers, we must also consider the influence of groups like 
ISIL have on individuals located in the United States who are 
inspired to commit acts of violence. It is this influence which 
I refer to as the blended threat.
    ISIL has proven ruthless in its violent campaign to rule 
and has become yet the latest terror group attracting like-
minded Western extremists. Yet, from a homeland perspective, it 
is ISIL's widespread reach through the Internet and social 
media which is the most concerning as ISIL has proven 
dangerously competent like no other group before it at 
employing such tools for its nefarious strategy.
    ISIL utilizes high-quality traditional media platforms as 
well as a multitude of most social media campaigns to propagate 
its extremist ideas. Like al-Qaeda and other foreign terrorist 
organizations, ISIL has effectively used the Internet to 
communicate, to both radicalize and recruit. Unlike other 
groups, ISIL has gone one step further and demonstrates an 
effectiveness to spot and assess potential recruits.
    Social media, in particular, has provided ISIL with a 
technical platform for widespread recruitment, operational 
direction, and, consequently, has helped bridge the gap between 
foreign fighters and homegrown violent extremists.
    As a communication tool, the Internet remains a critical 
node for terror groups to exploit. One recent example occurred 
just a few weeks ago. A group of five individuals was arrested 
for knowingly and willingly conspiring and attempting to 
provide material support and resources to a designated foreign 
terrorist organization active in Syria and Iraq. Much of their 
conspiracy occurred on the Internet.
    Following on other group's doctrines, ISIL too has 
advocated for lone wolf attacks. Last month, ISIL released a 
video via social media reiterating the group's encouragement of 
lone offender attacks in Western countries, specifically 
advocating for attacks against soldiers and law enforcement and 
intelligence members. Several incidents have occurred in the 
United States and Europe over the past few months thato 
indicate this call-to-arms has resonated among ISIL supporters 
and sympathizers.
    In one case, an Ohio-based man was arrested in January 
after he obtained a weapon and stated his intent to conduct an 
attack on the U.S. Capitol here in Washington, D.C. Using a 
Twitter account, the individual posted statements, videos, and 
other content indicating support for ISIL and he planned an 
attack based on his voiced support.
    Likewise, recent events in Australia, Canada, France, and 
the U.K. reflect the power of this radicalized message and 
reemphasize our need to remain vigilant in the homeland since 
these small-scale attacks are just as feasible within the 
United States. We should also understand community and world 
events as viewed through the eyes of the committed individual 
may trigger action as we have seen with the highly publicized 
events of the attack on the military personnel at the Tomb of 
the Unknown Soldier in Canada and the hostage situation at the 
cafee? in Australia. These acts of terror will attract 
international attention and may inspire copycat attacks.
    ISIL is not the only high profile terrorist organization of 
concern, however. Al-Qaeda in the Arabian Peninsula, or AQAP, 
poses an ongoing threat to the homeland and U.S. interests 
abroad. AQAP's online English magazine Inspire advocates for 
lone wolf attacks to conduct attacks against the homeland and 
Western targets by utilizing simple and inexpensive tactics and 
methods.
    Lastly, social media has allowed groups such as ISIL to use 
the Internet even more effectively by spotting assessing 
potential recruits. With the widespread distribution of the 
social media, terrorists can identify sympathetic individuals 
of all ages in the United States. Spot, assess, recruit, and 
radicalize, either to travel or to conduct a homeland attack. 
The foreign terrorist now has direct access into the United 
States like never before.
    As a result, it is imperative that the FBI and all law 
enforcement organizations understand the latest communication 
tools and are equipped to identify and prevent terror attacks 
in the homeland. We live in a technologically driven society 
and, just as private industry has adapted to these modern forms 
of communication, so too has the terrorists. Unfortunately, 
changing forms of communication on the Internet and through 
social media are quickly outpacing the laws and the technology 
designed to allow for lawful intercept of communication 
content.
    This real and growing gap the FBI refers to as ``Going 
Dark'' cannot be ignored. We must continue to build 
partnerships and work with Internet providers and social media 
companies to ensure lawful, appropriate collection when 
possible. Most companies are not required by statute to develop 
lawful intercept capabilities for law enforcement. As a result, 
services are developed and deployed without any ability to 
lawfully intercept and collect.
    The FBI, with our Federal, state, and local partners is 
utilizing all investigative techniques and methods to combat 
the threat radicalizing individuals may pose to the United 
States. In coordination with our domestic and foreign partners, 
we are rigorously collecting and analyzing intelligence 
information as it pertains to the ongoing threat posed by ISIL, 
AQAP, and other foreign terrorist organizations.
    I will end my comments here and put the rest in the record.
    [The prepared statement of Mr. Steinbach follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________
    Mr. Sensenbrenner. Without objection.
    Sheriff Stanek?

           TESTIMONY OF RICHARD W. STANEK, SHERIFF, 
                HENNEPIN COUNTY, MINNEAPOLIS, MN

    Sheriff Stanek. ----
    Mr. Sensenbrenner. Could you please turn your mic on, 
Sheriff?
    Sheriff Stanek. I'm sorry.
    Mr. Sensenbrenner. And we will reset the clock.
    Sheriff Stanek. Well, thank you, Chairman Sensenbrenner and 
Congresswoman Jackson Lee, for you generous invitation to 
testify this morning about our community engagement efforts in 
the Twin Cities and, in particular, our outreach efforts to the 
Somali Diaspora Community.
    I'm Sheriff Rich Stanek from Hennepin County, Minneapolis, 
Minnesota, a very diverse county with 1.2 million residents; 
425,000 of those residents are non-Caucasian. We have 40,000 
Oromo, 35,000 Liberians, and nearly 100,000 Somali residents 
living in Hennepin County; the largest Somali population in the 
Nation.
    I have 32 years of policing experience and I currently 
serve on the National Sheriffs and Major County Sheriffs 
Association executive boards representing our Nation's 
sheriffs.
    Mr. Chair and Members, just last week I joined our United 
States Attorney, Andy Luger and other community leaders from 
Minnesota to participate in a White House Summit on Countering 
Violent Extremism. We learned firsthand in late 2008 about the 
reality of radicalization when we had dozens of young men 
radicalized by al-Shabaab and leave the Twin Cities to fight in 
Somalia. Several have been confirmed killed fighting for al-
Shabaab, including the first confirmed suicide bomber from the 
United States, Shirwa Ahmend.
    Mr. Chairman, as one of the Committee Members pointed out 
this morning, we also had Douglas McAuthur McCain, the first 
American killed in Syria fighting with ISIL. Most of these 
young men had never seen Somalia or Syria, they only knew of 
their American lives. Their parents were shocked that their 
sons would return to the place that they had so desperately 
fled.
    The threat of radicalization from designated terrorist 
organizations like al-Shababb or ISIL, has become even more 
invasive; YouTube videos and chat rooms, Facebook pages with 
links to increasingly violent radical online programs, 
training, and ideology. And these threats are real.
    Just this week, al-Shababb released another propaganda 
video on YouTube mentioning the Mall of America in Bloomington, 
Minnesota, one of the largest cities in my county, encouraging 
al-Shababb followers to act out.
    Now, Mr. Chairman, Members, this is a marked change in the 
message from recruiting people to train overseas to recruiting 
Americans to train and act out here in the homeland; akin to a 
lone wolf.
    In response, we issued a joint media statement and public 
messaging, included the participation of local, state, and 
Federal law enforcement, as well as the Mall of America 
Security, a private corporation. We have developed these 
public-private partnerships that also include the Somali 
Community leaders, educators, and member of the business 
community, as well as faith leaders, to strengthen the public 
safety fabric of our community.
    Our efforts at first were to respond, but now we work to 
prevent and work to intervene. We help community leaders and 
family members identify the behaviors that can be cause for 
concern; such as withdrawal from family and normal social 
circles, accessing radical religious or Jihadist websites, 
forming close partnership within a small group of likeminded 
people, or obtaining large sums of money, conducting 
fundraising efforts, and acquiring travel documents amongst 
others.
    We are concerned, Mr. Chairman and others, about young 
people in isolation who cut themselves off from their family 
and their support networks. So we encourage parents, mothers 
and fathers, educators, business, and faith leaders, to close 
their own generational and cultural gaps and reach out to at-
risk youth. We all share a common mission of protecting our 
kids and our future.
    Mr. Chair and Members, at first, traditional methods for 
building communities of trust weren't working. We had language 
and cultural barriers that required new strategies: 
translations were difficult at best; men didn't want women at 
meetings; certain groups were in opposition to other groups; 
The greatest barrier of all, though, Somalis were distrustful 
of law enforcement because in their home country law 
enforcement often operates as the oppressive arm of government.
    The key to overcoming these barriers was the one-on-one 
personal relationships between a gentleman named Imam Roble and 
myself. Imam Roble was introduced and offered his prayer for 
world peace at the opening of the White House CVE Summit just 
last week. Others trusted us because he trusted us. He became 
our sponsor in the community, personally asking members to 
attend One Day Citizen, academies tailored to the Somali 
community. And we let everyone know we would be working with 
everyone; the elders, the religious leaders, women, and youth. 
We hired the first sworn Somali Deputy Sheriff in Minnesota, 
Halssan Hussein. We added a Somali community member to our 
Community Engagement Team, Abdi Mohamed.
    A great example of our new level of engagement. A Somali 
woman on our Community Advisory Board assisted us in adopting a 
new policy on religious head coverings, hijabs, in our jail.
    For me and law enforcement officers like me across this 
great country, fulfilling our Oath of Office means more than 
respect. We protect the privacy and the civil liberties of all 
residents in addition to their safety. And, for us, this is 
what it means to serve and protect.
    Mr. Chair and Members, violent extremism is a local threat. 
Local law enforcement will be the first to respond and we 
should be on the front line to educate and strengthen our 
communities, and to prevent or disrupt these threats. Our local 
law enforcement efforts coincide with the White House National 
Strategy for Counterterrorism to protect our local communities 
in ways that are consistent with our values as a Nation and as 
a people.
    By protecting the civil rights and liberties, we are 
strengthening our communities and building resiliency.
    Mr. Chairman and Members, we are presenting our American 
model of self-government, and the rule of law, an alternative 
to the radical message and ideology, a model of freedom and 
opportunity, education, dignity, and hope.
    Mr. Chair and Members, thank you very much for the 
opportunity to testify here this morning.
    [The prepared statement of Mr. Stanek follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Sensenbrenner. Well, thank you both for very on-point 
testimony.
    And Sheriff, let me say I particularly appreciate your 
outlined type of community outreach to basically identify 
people who might become radicalized by sitting in front a 
computer. I think that this is very important particularly in 
light of the FBI Director's admonition that there are ISIL 
cells in every state in the country. It is a problem that we 
face in our local communities, and anyone who thinks that they 
are immune of the reach of these types of radicals because they 
live far away from New York or Washington D.C., I think,is 
deluding themselves.
    I guess that the best thing the citizens can do is, if you 
see something, say something and let law enforcement know about 
it. And the fact that the threat against the Mall of America 
was not something that was picked up through any kind of 
classified intelligence information but the radicals put it 
right up on the Internet, shows how embolden they are in terms 
of being able to try to perpetrate giving people who might not 
be in face-to-face contact with them, some very bad ideas on 
how to harm America and how to harm Americans. You know, I hope 
that what you have been doing in the Twin Cities is something 
that can be expanded nationwide where these undercover cells 
are. So thank you.
    I don't have any questions of you. I think you hit all of 
the bases, but I do have some questions for Mr. Steinbach.
    We know that several U.S. citizens and U.S. persons have 
traveled to Syria. They usually go through Turkey; they sneak 
across the borders. How are you able to track these people and, 
I guess of greater concern, how are you able to track not only 
people with U.S. passports but people with passports from VISA 
waiver countries who have gone to Syria who might be returning 
or going to the United States?
    Mr. Steinbach. Sure. So I think it is a complicated answer. 
There are lots of ways we identify potential travelers: human 
source, technical means, strong partnerships, particularly with 
our European partners state and local level, partnerships. It 
has got to be a multitude of resources of plight toward the 
threat. We don't get that threat right all the time. We don't 
catch every single one that crosses, that leaves the country. 
As you know, it is not illegal to depart the United States, so 
we don't track folks departing in the United States, and they 
have become very smart about going to European destinations to 
mask their travel. So we have to stay on top of it. So we have 
to, again, use a multitude of resources including foreign 
partners who stay on top of it.
    Mr. Sensenbrenner. Do you have the necessary authorities to 
be able to deal with these people should they attempt to come 
back to the United States?
    Mr. Steinbach. Absolutely.
    If an individual travels over to Syria in support of ISIL, 
on neutral front or any foreign terrorist organization, 2339, 
U.S. 18-2339, show support to terrorism, is a good tool to use 
and it is an effective tool.
    Mr. Sensenbrenner. Let me get to people who come from VISA 
waiver countries which are primarily Western European. Are you 
able to track whether any of the people who don't need VISAs, 
in an attempt to fly to the United States are able to be caught 
before they arrive and if they are not caught before they 
arrive at the time of the airport that they are entering into 
the United States?
    Mr. Steinbach. So, yes and no, sir.
    The knowns, and so I think Ranking Member Lee mentioned the 
numbers and the volume of travelers. That is the volume of 
travelers going to Syria that we know about. There is a, an 
order of magnitude that is unknown to European allies. The 
known members, the known travelers, they are watch listed 
appropriately. So whether they are from a VISA waiver country 
or not they are watch listed appropriately and we can spot them 
before they come to the United States. Those unknown 
individuals that the European allies are not aware of are not 
watch listed, that is the problem and that is where the 
challenge is.
    Mr. Sensenbrenner. Okay. Thank you very much.
    The gentle woman from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank both of you for the excellent 
testimony that you have given and the partnership, though it is 
not an established partnership, between local government 
sheriff and the FBI, Mr. Steinbach, is evident that it is 
crucial.
    Let me say to the Sheriff and to my colleagues, as Sheriff 
Stanek mentioned, he was in Washington last week and I am 
particularly grateful that you have accepted our invitation to 
come back this week.
    So let me go to you first. You made a very important 
statement that should be reinforced. And I think Mr. Steinbach, 
when I question him, will likewise reinforce it. In this 
country, violent extremism is a local threat as evidenced by 
FBI Director Comey as well, about ISIL cells and others. So you 
were in the eye of the storm.
    Earlier this week, the terrorist organization al-Shababb 
posted a video declaring that Westgate was just a beginning. 
Al-Shabaab and al-Qaeda, affiliate based in Somalia, took 
credit for the 2013 attack on Westgate shopping mall in 
Nairobi; we know how vicious and vile that was and how many 
lost their lives. The video goes on to mention the Mall of 
America in Bloomington, Minnesota which you have spoken of.
    So I want to pointedly ask you, do we not have a due 
responsibility? The threat came right to your doorsteps and I'd 
like you to offer either your assessment of the tools that you 
have, fusion centers, joint terrorism centers, collaboration, 
with that threat coming to your doorstep even if someone would 
argue that it is simply a threat with no ability to be 
implemented. I always believe that caution is the better of the 
game. But match that with your answer about the outreach and, 
as that video came out, the potential of the outreach in 
relationships to get information from the community in which we 
speak; the Somalian community.
    Sheriff?
    Sheriff Stanek. Sure.
    Well, thank you Congresswoman Jackson Lee. You are not the 
first one to ask me that question this week, so I appreciate 
that.
    Look, this--we have set. This propaganda video put out by 
ISIL mentioning the Mall of America and just that. It is not 
the first time it has been mentioned. Our resiliency in 
Minnesota with local law enforcement, my Federal law 
enforcement partners, is very strong. We train, we exercise, we 
plan and prepare incessantly hoping that something bad never 
happens but knowing full well that each and every day across 
this country and across this world it does. But we are 
prepared.
    We worked through the Joint Terrorism Taskforce with the 
FBI, we work with our private sector partners like I mentioned, 
add on that the Mall of America is a private security force but 
they work hand-in-hand with the Bloomington Police Department, 
our Sheriff's Office, our Federal law enforcement partners. Our 
fusion center in Minnesota is robust and does a great job day 
in and day out getting the information out to me as the Chief 
Law Enforcement Officer in my county.
    Ms. Jackson Lee. My time is running out. Go to the next 
part of it, the outreach part and how that plays a role. And 
then I have a question for Mr. Steinbach. So I am watching the 
clock, but thank you.
    Sheriff Stanek. Great. So, I'm sorry.
    Just yesterday afternoon, before coming out here, I had 
lunch with member of the Somalia Diaspora community. We talked 
about the Mall of America as well as other things. They 
renounced what they saw in that video. That would not have 
happened several years ago. They wouldn't know how to respond. 
We work with them day-in and day-out to empower them to 
understand what is happening in their community with their 
young men and young women so that these radicalization efforts 
do not happen. It is about building long-term communities of 
trust and a respectful partnership that is enduring.
    Ms. Jackson Lee. Thank you so very much.
    Mr. Steinbach, let me thank you for your work and thank the 
FBI for that excellent work in New York just in the last 24 to 
48 hours.
    Very quickly, I'm concerned about the no-fly and--let me 
just say foreign fighters. And we are looking at legislation 
dealing with making sure our lists are accurate. But, frame for 
us again the extent of the potential foreign fighters coming to 
the United States. And then comment on any FBI efforts that 
deals with the extremism as it relates to women, which is 
increasing, as related by the Denver young ladies who I think 
the FBI was very much involved in; and certainly an article 
that I just read about a young woman in Scotland who was a 
perfect teenager and now has become known as the darling 
recruiter of women into extremism. How is the FBI sectioned, 
has a separate section or knowing that this is a particular 
issue that it must deal with?
    Mr. Steinbach. So really quickly. So foreign fighter is a 
problem but it is a small problem compared to our European 
partners. The larger problem is that population of HVEs 
inspired--those individuals who were frustrated travelers, 
denied travelers don't have the means to travel. Foreign 
fighters, small. The larger populous and the larger concern is 
much larger. ISIL and others are looking to recruit that part. 
They know they can't travel so what they are doing is they are 
putting out a very effective propaganda message through social 
media, through lots of platforms saying ``Hey, if you can't 
come to Syria, doing something in the U.S. or Western 
countries.''
    That social media outreach is focused on those who use 
social media; our youth. So you find the trend over the last 
year or so has been a decreasing age group that are being 
recruited both male and female, as well as you are seeing more 
females, younger females, attracted to this message.
    Mr. Sensenbrenner. The gentle woman's time has expired. The 
gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. Steinbach, let me begin by commending you and the FBI 
for your work in apprehending that 20-year old radicalized 
individual who intended to attack the capitol building across 
the street. This was sort of near and dear to me because he was 
from my district, went to a local high school there in the 
mosque that he allegedly attended, is about a quarter of a mile 
from the place I had my first job and is two miles from the 
home that I lived in for 30 years and lived in that, within two 
miles, for 50 years now. So this is right in the heart of where 
we come from.
    My first question was, he claimed to have attended that 
mosque, and it is relatively close to where he would have grown 
up et cetera. The coverage back home on television, the people 
from the mosque that were on TV were asked about him, said, 
``Well, we never saw him. We don't know anything about him.'' 
Is that something that has been looked into up to this point? 
Do we know if he was connected to that Mosque or not?
    Mr. Steinbach. Let me be careful about talking about an 
ongoing investigation----
    Mr. Chabot. I understand.
    Mr. Steinbach [continuing]. But I will say that, yes, we 
have strong understanding with our local partners there, state 
and locals, as to how as radicalization beginnings, what his 
intent was. So we are pretty comfortable understanding that 
individual.
    Mr. Sensenbrenner. In that it was or wasn't connected to 
that mosque?
    Mr. Steinbach. So, again, I don't want to get into the 
specifics of the investigation. I would say to back it up in 
general and talk about HVEs in general. I will say the majority 
of the radicalization proces now, though varied as it is, we 
are finding the majority is online and the Internet.
    Mr. Chabot. Right.
    And clearly it looked at the majority of what the input 
came and the motivation was online and as you indicated that 
seems to be happening more and more frequently.
    Sheriff Stanek, let me ask you. I also want to commend you 
for your work in reaching out to the Somali community in your 
area and forging a strong bond--enforcement in the Somali 
Diaspora and the work you are doing to continue your hiring 
efforts in order to create a more diverse agency in those types 
of things.
    Let me ask you about--there has been some controversy about 
a spokeswoman at the state department who has made some 
interesting proposition about, you know, we need to find more 
jobs for these folks and, if we can do that, then they won't 
end up killing us; for lack of a better term. Her quote exactly 
was ``We need to go after the root causes that lead people to 
join these groups whether it is lack of opportunity for jobs or 
whatever, we can help them build their economies so they can 
have job opportunities for these people.''
    And you know, with an unemployment rate of 3.6 which is 2 
Percent under the national average in Minnesota and 
congratulations on that. Do you believe that if we had created 
more jobs for the dozens of young men who were radicalized by 
al-Shababb and became suicide bombers in Somalia that they 
would have chosen a different path?
    Sheriff Stanek. Yeah, Mr. Chairman and Congressman Chabot, 
thank you very much for that question.
    You know, I think that is only one part of the equation. I 
think that is not the only way that these individuals thrive 
and grow in our community. Minnesota prides itself on a very 
diverse community. Many of us in Minnesota are immigrants. I 
come from a Polish heritage, second generation. A lot of folks. 
But education, jobs, the economy, only one part of it. The 
other part is also understanding the American criminal justice 
system, understanding our culture, and for us to understand 
what they bring to the table. We have worked extremely hard on 
this. It is not easy. It is about those long-term trust and 
relationships that we are working every day to build.
    Mr. Chabot. Thank you.
    And just to follow up and I am almost out of time here. As 
Chairman now of the Small Business Committee and having served 
on that Committee and this one for 19 years now, and I am all 
for job creation and getting this economy moving and we can do 
that by lessening the regulations on small businesses and 
reforming the tax code and a whole range of things, but anybody 
that thinks that a job program is going to go a long way toward 
solving our problem with these radicalized folks in this 
country or over there, I think that is not a very correct way 
of thinking about this. I mean these people are deadly serious. 
They have a job and that is beheading people and torturing 
people and, you know, their mentality is, you know, convert or 
die and we got to defeat them.
    Thank you.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    I want to commend the testimony we have heard here today 
from these gentlemen and it is, to me, very important that I 
compliment Sheriff Stanek because you anticipated the very set 
of questions I was going to put to someone that is right there 
on the ground as to how do you interact and relate to people of 
a different faith, many of whom are very nervous about elected 
officials and law enforcement officials particularly. And 
yours, that you have discussed here today and the interaction 
that you have made, not only with the community but what the 
leaders of their community, are extremely critical. And I think 
it is a step-by-step instruction manual for local law 
enforcement officials everywhere in this country to follow.
    Are there any considerations about this part of our 
discussion here today that you would like to add to?
    Sheriff Stanek. Mr. Chairman and Congressman Conyers, you 
are absolutely correct and thank you very much.
    The men and women who work in my Sheriff's Office as well 
as my partner law enforcement agencies in Minnesota really 
appreciate that. In fact, as you know, Minnesota, the 
Minneapolis areas, was selected as one of the three pilot 
cities across the U.S., in Boston, Los Angeles, and 
Minneapolis, to share what we learned. Unfortunately, we 
learned as a result of some, you know, tragic incidents with 
Douglas McCain and Shirwa Ahmed but we fully intend on helping 
our local law enforcement partners understand what we can do. 
Race, ethnicity, gender have not place in terms of policing. We 
treat everybody equally and, like I said, we not only respect, 
we protect the civil rights and liberties.
    Mr. Conyers. Well, that is what I think we need to get out 
because there is an understandable dichotomy between people of 
different faiths and religions relating to law enforcement and 
elected officials. And I think you have set the pace for how it 
ought to be done. And I hope that we can somehow get, 
incorporate, your experiences into messages that we here in 
Washington, all the members of the Federal legislature, get out 
all of the people in our country.
    Director Steinbach, I am, with respect to the threat posed 
by the Islamic State and other terrorist organizations, you 
state that the FBI along with our local, state, and Federal 
partners is utilizing all investigative techniques and methods 
to combat the threat these individuals may pose to the United 
States. Now, when you say Federal partners, do you include the 
Department of Homeland Security?
    Mr. Steinbach. Yes, sir.
    Mr. Conyers. Well, I noticed that in your testimony on 
February the eleventh before Homeland Security, you referred 
specifically and explicitly to that. Isn't that correct?
    Mr. Steinbach. I am going to leave that to you--I assume 
so, sir. I can't recall.
    Mr. Conyers. Well, I can help you. You did.
    Mr. Steinbach. Okay.
    Mr. Conyers. But you didn't mention that today. And, as you 
know, in very shortly we are going to be out of funding for 
that. Do you have any recommendations or views about the 
funding of the Department of Homeland Security?
    Mr. Steinbach. No, sir. I will not comment on that.
    Mr. Conyers. How come?
    Mr. Steinbach. Sir, I think it is a political question and 
I am going to stay out of that. My job as the Assistant 
Director of Counterterrorism is to lead the FBI efforts in 
counterterrorism.
    Mr. Conyers. Well, I tried.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Idaho, Mr. Labrador.
    Mr. Labrador. Thank you very much. And I want to thank both 
of you for being here today. I want to thank you for your 
service and for the good work you are doing for the people of 
the United States and in your communities.
    Mr. Steinbach, in your written testimony you mention that 
ISIL's online program propaganda efforts is a threat to Western 
interests. How is the FBI approaching spread of ISIL's online 
presence?
    Mr. Steinbach. So I think it is not just the FBI, it is the 
whole of government including state and local partners like the 
Sheriff here. We have to approach it from a counter messaging 
perspective where we look to counter violent extremists efforts 
at the local level in particular, like the Sheriff mentioned, a 
larger counter messaging narrative, and then, of course, we 
have to look at from an investigative point-of-view, from an 
intelligence collecting point-of-view. Find out where they are 
at and be where they are at in social media and on the 
Internet.
    Mr. Labrador. Sheriff, what are you doing at the local 
level to counter the, especially the propaganda that is on the 
Internet?
    Sheriff Stanek. Well, Mr. Chairman and Congressman 
Labrador, you know, we try and change the narrative of this 
propaganda. Like I said, it is not the first time the Mall of 
America, an iconic institution, happens to be located in 
Minnesota, has been mentioned. We go to the community itself 
and help empower them. We look to the young people like the 
organization called Ka Joog, Muhammad Farah and others were out 
here last week with us, where Imam Roble and the religious 
leaders or some of the business people like Mr. Bihi and others 
who every day are out in the community. They are reflective of 
the community and they work with local law enforcement to help 
change that narrative, help the young people understand, 
talking with the moms, the Somali mothers of these young men 
and women who for some reason choose, like I said, to be 
radicalized, maybe go overseas, maybe act out here, but we work 
with them. It is not easy. Like I said, it is a long-term 
trusted relationship, it is not just a conversation, it is a 
discussion we come back to the table time and time and time 
again.
    Mr. Labrador. Thank you.
    Mr. Steinbach, we know that the problems we had in 
Brooklyn, that the persons who were arrested were not American 
citizens, they were legal permanent residents. Is that correct?
    Mr. Steinbach. Yes, sir.
    Mr. Labrador. Now, are we finding that most of our problems 
are with non-citizens, with people that are here illegally, or 
are you finding more problems with actual young kids who were 
born in the United States?
    Mr. Steinbach. So I think an interesting fact on some of 
the individuals that we investigate for support to ISIL is the 
lack of a singular profile. We find citizens, legal permanent 
resident aliens, some folks that are overstaying their VISA. 
There is actually quite a diversity of those individuals who, 
for one reason or another, stated an intent to harm the United 
States.
    Mr. Labrador. So do you think this is a growing threat? Do 
you think that the Brooklyn situation is representative of a 
growing threat of the United States?
    Mr. Steinbach. I believe that it is a good example of what 
the threat looks like which is individuals who perhaps began 
their intellectual curiosity looking online, at some point were 
radicalized before, but became more radicalized online, focused 
their efforts to do something to travel overseas. If they can't 
travel overseas, to conduct an attack on the U.S. We are seeing 
that play more and more often. So I would say it is probably a 
good cross section of some of the cases we have.
    Mr. Labrador. Are you finding a growing threat also of 
people coming from Western Europe and other areas to the United 
States who have these radicalized ideas?
    Mr. Steinbach. So I don't if it is a growing threat. I 
don't know if we see an uptick in Western Europeans coming to 
the United States to conduct an attack or do some type of 
operation. Again, it is a cross section of individuals, those 
who have been born and raised in the United States, those that 
are first generation residents, legal permanent residents, 
those who have come in and have overstayed their VISA. It 
really is a lack of a profile on their status that is 
remarkable in this threat.
    Mr. Labrador. How do you think we can then combat that? Do 
you have any suggestions for us here in Congress about some 
things that we should be doing and thinking about?
    Mr. Steinbach. If I were to comment on one area where I 
think we are most concerned about as an organization, as an 
intelligence community, it is on the idea of ``Going Dark'' 
which I think I mentioned in my testimony.
    So there are essentially three paradigm shifts. After 9/11, 
the Internet, and this third paradigm shift being social media. 
And the ability of sympathizers, recruits, to use social media 
effectively is a concern for us. And the concern is that, with 
the number of social media companies, with encryption, we are 
continuing to ``Go Dark'' both as a law enforcement community, 
as an intelligence community. So I would ask Congress to look 
seriously toward updating CALEA and laws and legislation to 
allow us to lawfully intercept. When we have got the right 
through the FSK or through the criminal courts to intercept 
communication content, I would ask that we receive help from 
Congress to go down that road. It is a concern, and we continue 
to lose more and more ability to see the content lawfully.
    Mr. Labrador. Thank you.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentle woman from California, Ms. Chu.
    Ms. Chu. Sheriff Stanek, the countering violent extremism 
program is designed in part to encourage individuals to provide 
law enforcement with information deemed suspicious or 
predictive of violent extremism. I have heard from the Muslim 
American community who have concerns that the program is 
largely focused on them and that it can be stigmatizing, can 
lead to distrust between the American Muslim community and law 
enforcement. As someone who has worked directly on these 
issues, could you share your approach to building trust and 
ensuring that your community is safe or minorities are not 
isolated? And, could you also describe law enforcement to 
practices that have not worked in the past?
    Sheriff Stanek. Yeah. Mr. Chairman and Congresswoman Chu, 
thank you very much for that question.
    You are correct. Countering Violent Extremism, CVE, is 
different that Community Engagement Techniques, CET. And so we 
do not mix the two. You cannot, shall not, mix the two. If 
members of the Diaspora community think that your community 
engagement techniques are not nothing more than a front for 
intelligence gathering to counter violent extremism, that is a 
problem. You get at countering violent extremism by building 
strong relationships in the community through community 
engagement techniques. And I want to be clear about that.
    Again, the strategy that local law enforcement uses is akin 
to community anointed policing concepts like we use with gangs 
and other things as we have fought them across this country. 
And they are age-old, tried and true techniques and practices 
in which local law enforcement works every day with those 
communities to help them understand, and, like I said earlier, 
to help empower them to do for themselves and be responsive to 
local law enforcement.
    Ms. Chu. Thank you for that.
    And, Director Steinbach, what steps are the FBI taking to 
ensure that the CVE programs do not stigmatize Islam or single 
out Muslim Americans?
    Mr. Steinbach. I think the Sheriff alluded to it best, 
ma'am.
    Community Countering Violent Extremism is best left to the 
local level. I shouldn't be sitting here in D.C. dictating how 
Sheriff Stanek is going to involve his community in that 
outreach and that program. We need to, at the Federal 
Government level, empower them but push it down to the 
community level, which is why I think you saw last week Los 
Angeles, Boston, and Minneapolis come and kind of lay out their 
models. I think each model has to be individually tailored 
based on the needs of the community.
    But I really think that CVE efforts needs to be pushed out 
to the local level, much like DARE. Let the community, not only 
the police, but community centers, religious institutions, the 
schools, they have to be intimately involved. They are the best 
place to handle that.
    Ms. Chu. Okay, thank you.
    Sheriff, 2 weeks ago in North Carolina, three young 
American Muslims were murdered execution style by a neighbor 
who, it is widely documented, expressed deeep hatred of Muslims 
as well as other religions. As you might imagine, there are 
many people in this country who have formed bigoted views of 
all Muslims as a result of ISIL. In fact, after 9/11 the number 
of anti-Muslim hate crimes increased nearly 500-fold. And in 
the year since, annual hate crimes have hovered in the 100 to 
150 range; about five times higher than the pre-9/11 rate. What 
steps are being taken to ensure that hate crimes against 
American Muslims do not occur?
    Sheriff Stanek. Yeah. Mr. Chair and Congresswoman, we work 
extensively with the Department of Homeland Security and the 
Office of Civil Rights and Liberties, reaching out to our 
Muslim community helping them understand what their rights are, 
where to complain.
    We just dealt with a mosque in one of our local 
communities. They wanted to build a mosque. That suburban 
community said no, for whatever reason it was. We followed up 
with the United States Attorney. He was very bold, he was very 
straightforward. He sued that local community to help them have 
a better understanding, I think, of what it means for religious 
freedom and to be able to do what they want to do within the 
bounds of law.
    That mosque is now--the groundbreaking is next week. I will 
be attending proudly representing local law enforcement. That 
is a great example of doing things the right way for the right 
reason and not discriminating.
    Ms. Chu. Thank you. I yield back.
    Mr. Gohmert [presiding]. The gentle lady yields back.
    This time the Chair yields to the gentleman from Texas, 
Judge Poe.
    Mr. Poe. Appreciate the Chairman.
    Thank you, gentlemen, for being here.
    As the Chairman indicated, I used to be a criminal court 
judge in Texas and a prosecutor. I just give you that by way of 
background in the criminal justice area.
    A hundred and fifty Americans have traveled abroad, 
recruited by ISIS. How were they recruited?
    Mr. Steinbach. I am sorry, sir?
    Mr. Poe. How were they recruited? The so-called 150 that 
have been radicalized and gone abroad, how were they recruited?
    Mr. Steinbach. So not 150 have traveled abroad. That is our 
category. So that includes a bucket of those who have tried to 
travel, those who have been killed, those who have been 
arrested. But broadly, that 150ish number, I would say there is 
a variety of means. If I had to categorize one method over the 
other, I would say the Internet or social media probably ranks 
highest, but there is also friends and associates. But I would 
say the Internet and social media probably is the overriding.
    Mr. Poe. Would you agree with that, Sheriff?
    Sheriff Stanek. You know, Mr. Chairman and Congressman, I 
do. That, as well as I think extended families. A lot of folks 
in my community, again, maybe we are just a little bit 
different because I have got that large Somalia population, but 
a lot of them, a lot of them have extended family back in 
around the Horn of Africa.
    Mr. Poe. I want to specifically talk about ISIS and other 
foreign terrorist organizations. With that label that we give 
them, not a terrorist that somebody may just say, ``Well, that 
is a terrorist out there in the fruited plain.'' But 
specifically, foreign terrorist organizations and ISIS and 
their recruitment.
    The Section 219 of the Immigration Nationality Act states 
that ``It is unlawful to provide a designated foreign terrorist 
organization with material support or resources including 
property tangible or intangible or services.'' I'm sure you 
have heard that, read that before.
    Twitter seems to be one of the avenues of social media 
where individuals are radicalized or recruited through public 
Twitter sites. I am not talking about the private chatter. I am 
talking about the public. And they use propaganda, recruitment, 
and they raise money on Twitter. Would both of you weigh-in on 
the obligation of Twitter if any, in your opinion--I'm asking 
your opinion, not a legal opinion, of being more proactive on 
taking down those sites? After all, you just said they had been 
recruited by social media and that is just one of the many 
others; Facebook and YouTube seem to be a fairly good job of 
taking down those individual sites. Would both of you briefly 
weigh-in on that issue?
    Mr. Steinbach. Yes, sir.
    So we have engaged Twitter. We have spent lots of time 
discussing with Twitter our concerns but I think we need to be 
careful that--because what we do see is, like you said, 
individuals engaging in the public arena on Twitter and other 
social media accounts, but then they do very quickly take their 
conversations into private chat.
    So on the public forums, or in the public arena, we see 
just conversation, First Amendment conversations, if you would 
like. So I would be hesitant to dictate to Twitter how to 
conduct its business. Now, we do have conversations with them 
and when it is appropriate we explain to them the threat and we 
would hope that, by the terms of their service agreement, they 
would then remove those posts. But for the most part, from my 
experience, what you see is individuals who quickly take the 
conversation offline to an encryption device or some other 
means to really discuss plans and really discuss those things 
that we would use to charge somebody with material support.
    Mr. Poe. Okay. I am about out of time so let me try to sum 
up just on this one issue.
    Foreign terrorist organizations, though, are not--we are 
not permitted to help foreign terrorist organizations under the 
code that I just read to you. We would never allow ISIS to take 
out an ad in the Washington Post recruiting folks to go to 
Syria, radicalize, and come back and kill us. We wouldn't allow 
that to occur. Why? Because that would be aiding. To me, that 
would be violation of this statute. Statute does require, I am 
not talking about where we can disagree whether or not the 
recruiting. I am talking about open, obvious site of 
recruitment. Does the FBI, on occasions, recommend that Twitter 
take down that specific site?
    Mr. Steinbach. No, sir, we don't.
    Mr. Poe. So you don't make that recommendation to Twitter?
    Mr. Steinbach. No. What we do is if we see a site of 
interest, we provide them some type of process to start 
monitoring that site. Now, in many cases----
    Mr. Poe. They monitor it, or you monitor it?
    Mr. Steinbach. We request through legal process or through 
2702, we request that we get access to stored content, current 
content, and then in many cases what ends up happening is, 
Twitter then voluntarily takes it down. But we don't----
    Mr. Poe. All right.
    Mr. Steinbach [continuing]. Specifically ask to take down a 
site.
    Mr. Poe. Okay. So you don't make that request. You let them 
make that decision on their own.
    One more question if I may, Mr. Chairman?
    The three individuals or four that were apparently arrested 
today, Coney Island, through public news sources, states that 
the information to find out who these individuals were was 
through confidential informants. I am not asking you to comment 
on that.
    Confidential informants, as the term is used, is still one 
of the best ways, is it not, to find out who people are who are 
committing crimes not just in terrorism but any type of crimes 
in the community? Would you agree with that or not? Either one 
of you.
    Mr. Steinbach. Absolutely.
    Mr. Poe. Sheriff?
    Sheriff Stanek. Oh yes, sir. We encourage it. Like you 
said, the ``See Something, Say Something'' campaign is akin to 
that as well.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you, all.
    Mr. Gohmert. The gentleman's time has expired.
    Now recognize the gentleman from Louisiana, Mr. Richmond, 
for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman. And thank you to the 
witnesses and we had a Homeland Security meeting going on at 
the same time, and I think that the protection of the homeland 
is very important to everybody and it has us scattering today.
    Let me ask just a basic question. And, Mr. Steinbach, or 
Sheriff, you may have some insight. But, as you all deal and 
interact with ISIL, ISIS, IS, however you want to call it or 
the people involved in it, do you all have a sense of the 
endgame or what they perceive to be the win? And I ask that 
question because it helps me to understand, you know, how we 
deal with them in terms of homegrown terrorism and so forth.
    So, Mr. Steinbach, do you have a sense of that?
    Mr. Steinbach. Yes, sir.
    I think ISIL has been pretty outspoken in its plan to 
reestablish the caliphate. If you look at some of their open 
source information, the caliphate extends well past Syria and 
Iraq, it goes into Northern Africa, it goes north. So I think 
that is their stated intent. And so, when they look to recruit, 
they look to recruit lots of individuals, foreign fighters, 
professionals, to come to the caliphate to help establish that 
caliphate. And, if you can't come to the caliphate, attack the 
West.
    Sheriff Stanek. Mr. Chairman and Congressman Richmond, I 
absolutely concur. I think that is, I mean, that is the answer. 
That is what they seek from us or to do to us.
    Mr. Richmond. And I guess, in some of my reading and in it, 
I guess I was looking for the ultimate win and I don't know if 
it is the plan for the apocalypse or the end of the world or 
whatever, but part of that becomes then, what message are they 
using in terms of social media to people in the United States 
to get them excited about getting involved in this? So, is it 
true, just a push on the religion?
    Mr. Steinbach. Well, I think they have a very effective 
message. So, you know, perhaps previous groups like al-Qaeda 
identified the caliphate in years or decades to come.
    Mr. Richmond. Right.
    Mr. Steinbach. ISIL has said the caliphate is now. Bring 
your family to the Islamic state now. And that is a fundamental 
difference. So it is a message that is resonating with a lot of 
individuals. And then, when you get online to some of these 
places, they describe a community, which is a false narrative 
of course, but they describe a community with schools and 
infrastructure and support services that I think younger and 
younger folks find attractive. And, again I will emphasize, 
that is a false narrative.
    Mr. Richmond. And I think that is a consistent with 
everything that I have read, that they pushed, that there is 
free healthcare, there is free schooling, and that your food 
and everything will be provided for you, but if you still want 
to work and do exceedingly well. You can and, you know, to the 
extent we can, and to what extent have we made sure that we get 
the information out there that this is not true, that it is all 
propaganda--intended to suck you into the cause and to get you 
involved, but it is absolutely not true.
    And I have not seen that message out there as much as I 
have seen the opposite message.
    Mr. Steinbach. So I think you are right, sir. We have an 
effective counter narrative, but the volume, the sheer volume, 
we are losing the battle; to the amount of use of social media 
and other Internet-based activities eclipses our effort.
    Sheriff Stanek. Mr. Chairman and Congressman, I think you 
are absolutely right, though. That counter narrative is really 
important and that is what we do when we counter violent 
extremism in our local community. When we reach out and work 
with the Diaspora community, they do it for us. We empower 
them. Like I said on, you know, Sunday afternoon, Sunday 
evening, after this video comes out about Mall of America and 
ISIL, the community itself responds. They didn't do that years 
ago. We have empowered them to be able to do that and work with 
them.
    Mr. Richmond. Which is a great, I guess, probably last 
question is, how do we as a Congress and as a government 
empower them and include them more in helping us to fight 
something where we are at an adherent disadvantage as a 
government, as a traditional FBI or law enforcement, where 
minorities are so underrepresented? How do we expand the 
umbrella to help empower these and that faith religion to help 
us with this because they share our same interest and they want 
our same result, which is to defeat ISIS? So how do we include 
them?
    And, Mr. Chairman, after that answer I yield back.
    Sheriff Stanek. Mr. Chairman, can I answer that question?
    Mr. Gohmert. Yes, please.
    Sheriff Stanek. Thank you very much.
    Mr. Gohmert. Both of you, if you wish, may answer the 
question; sure.
    Sheriff Stanek. Congressman, I think you are absolutely 
right again. But, you know, should this Committee ever choose 
to get out of D.C., instead of you home districts, come visit 
me in Minnesota. I would be happy to sit down with you at the 
Safari Restaurant on 31st and 4th Avenue South, in the heart of 
the Somali community. Meet Abdi Warsame, a Minneapolis elected 
city council member, meet a member of the Minnesota 
legislature, the first one elected in the country. Meet the 
school board members who are Somalian Americans. Understand 
that they are working really hard and now they have moved on 
and now they are representing their community in the very 
venues like we do, like you do.
    I think that is really important. And I encourage you, if 
you ever get a chance, call me. I would be happy to sit down 
and have a meal with you at the Safari Restaurant or somewhere 
else.
    Mr. Steinbach. And I strongly couldn't top that. I think 
the Sheriff is right. It is his efforts and the efforts of 
police officials and sheriffs around the country that need to 
be leading the way in this counter messaging effort. They know 
their communities much better than I do and I wouldn't pretend 
to take lead in that. I expect and it is happy to see 
individuals like this sheriff to take lead in that and make 
effective use of that outreach.
    Mr. Gohmert. All right. Thank you. The gentleman's time has 
now expired.
    The Chair now recognizes a gentleman from Michigan, Mr. 
Bishop, for 5 minutes.
    Mr. Bishop. Thank you, Mr. Chairman. And I'd like to take 
the opportunity to thank both of you for being here today. It 
is refreshing to see the collaboration that goes on between 
local and Federal departments.
    I am from the Detroit area, Oakland County, Michigan. Home 
of Mike Bouchard, who was our sheriff and has done a similar 
job in establishing a relationship with the Federal agencies in 
the Detroit area. And I am grateful for that because they are 
building the same kind of relationships. I was just briefed by 
the FBI in Detroit and they are doing a fantastic job.
    In an area, we are a border community, we are a number of 
races, religions; it is a melting pot in our community. So it 
is a fulltime job in building relationships, and law 
enforcement has done a great job.
    I mention that because ISIL controls a large swath of 
territory in Eastern Syria and Northern Iraq, and there are 
seven Nations that border Iraq and Syria including Iran and 
Lebanon. And near as I can figure, that is seven different exit 
points and entry points. And I am wondering if you can comment, 
I guess specifically to the director, do you have relationships 
with these foreign Nations the same as you have with your local 
law enforcement that help coordinate your efforts?
    Mr. Steinbach. So I wanted to say, just the FBI alone, the 
intelligence community, the U.S. government, has robust 
relationships with neighboring countries, Western allies, and 
that relationship has become all the more important as the 
world is shrunk in this speed with which information must be 
shared is needed. So, yes.
    Mr. Bishop. Thank you.
    I want to go back to this ``Going Dark'' issue that you 
raised earlier. I didn't think you had enough time to expound 
upon that. As a former prosecutor myself, I understand the 
importance of information and having the opportunity to gain 
access to certain information. But I also understand the civil 
libertarians out there are concerned about how that information 
is accessed and the process by which you are to access it. We 
hear a lot of talk about Section 2702 and all these legalisms 
that are out there. But can you explain to folks generally 
speaking how you obtain this information and the fact that you 
just don't have open access to that information?
    Mr. Steinbach. Yes, sir. I would be happy to.
    So I think it is important to note what we are talking 
about is not obtaining additional authorities, expanding 
authorities, but being able to use those existing authorities 
we have. So with the telecommunication and social media 
companies, the Internet companies, as they increase their 
technology, we don't have the ability to go in with the same 
legal authorities we have always had to obtain content. Whether 
that is a criminal investigation for child pedophiles or gangs 
or organized crime or terrorism. We are talking about going 
with a lawful court order, on the national security side of the 
house, that will be the FSK or, if we are talking about through 
the criminal side, through the courts, with a court order 
signed by a magistrate that would allow us lawfully to see that 
content.
    We are not talking about looking in obtaining additional 
authorities or expanding our reach. We are talking about that 
same ability we have always had. And I will say that we are 
losing that ability. If you look at the numbers in a classified 
setting, we can talk more, but we are getting further and 
further away from that ability, that lawful ability that we are 
asking for.
    Mr. Bishop. Tell me, just so the public understands, what 
threshold that you have to show to gain access, to get that 
court order for example, to do what you need to do?
    Mr. Steinbach. So we have to go to a court, either the FISC 
or to a magistrate in the criminal courts or at the state level 
or at the Federal level, and show cause. So probable cause as 
to why, provide and affidavit that lays out the facts that 
shows why we believe it is important and necessary toward the 
investigation to look at that either that stored content in the 
search, or look at the ongoing content.
    Mr. Bishop. And a warrant is not issued unless there is an 
established probable cause based on the evidence you presented 
and the testimony you presented; correct?
    Mr. Steinbach. Correct.
    Mr. Bishop. Very quickly. There are three amendments to the 
Foreign Intelligence Surveillance Act which will be expiring on 
June 1, 2015, including Section 206 and 215 of the USA Patriot 
Act. Can you tell me how the expiration of these authorities 
would impact the FBI's ability to conduct investigations?
    Mr. Steinbach. I think it would have a negative 
implication. We use those tools responsibly, but we use them to 
identify those individuals that have stated an intent to 
conduct a terrorist attach or support a foreign terrorist 
organization. And if those tools, those lawful tools, expire, 
it will limit our ability to do our jobs.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Gohmert. Thank you.
    This time, I will recognize myself for 5 minutes.
    I appreciate you being here, your testimony. I am still 
confused after these years over communication problems within 
our homeland security. I wasn't here when homeland security 
department was created but, since I have been here at times, it 
seems like it has created more bureaucracy to get through in 
trying to get messages to and from the different departments 
that are affected.
    I was curious. I had seen an article today, in Breitbart, 
about U.S. Customs and Border Protection and special agents 
with U.S. Immigration Custom Enforcement. Homeland Security 
Investigations got a tip about a large shipment of marijuana, 
it has resulted in finding a tunnel in a home in Arizona and it 
had a hydraulic lift coming up from the tunnel. They are saying 
4,700 pounds of marijuana were found. And I am curious, the 
article indicates that a significant number of the finds of 
tunnels don't come from detecting tunnels.
    Mr. Steinbach, are you familiar with efforts to try to 
locate tunnels that might be going across our border? I know it 
normally effects more the DEA but, ever since I read the Tom 
Clancy novel where, yeah, where the drug tunnels ended up being 
hired out by cartels, actually the Middle Eastern terrorists, I 
wondered if that isn't a possibility if some of our enemies are 
as smart as Tom Clancy was. Are you consulted? Does 
counterterrorism division look at those issues at all?
    Mr. Steinbach. We do, sir. And I think you break it down 
between known threats and vulnerabilities. So the southwest 
border would certainly be a vulnerability. So part of our job 
is working with the rest of the intelligence community, again, 
with the locals in that area, to discuss and research what 
potential vulnerabilities are out there that not only would be 
used by a drug cartel but could also be exploited by a foreign 
terrorist organization.
    So we have a process. We work with our partners through the 
JTTFs, through the fusion centers, make sure that stuff like 
that, information like that, is spread horizontally across the 
infrastructure so that my folks in counterterrorism with a 
counterterrorism slant can look at it, the Sheriff's folks can 
take a look at it from local law enforcement. Really, the key 
is having an infrastructure set up so that the fusion centers, 
the JTTFs, have a robust information sharing process so that 
when stuff pops up across the spectrum of the 17,000 state and 
local and tribal agencies that it is quickly pushed to where it 
needs to go.
    Mr. Gohmert. You bring up the fusion centers. I had heard 
from some of our law enforcement that, gee, it has now become a 
one-way street, the feds want us to give them our information 
but we can't get information back from them.
    Sheriff, how has your communication been in the last few 
months with the fusion center? Have you had any success in 
getting information from the Federal authorities?
    Sheriff Stanek. Yeah, Mr. Chairman, you raise a good point 
as well. Some of that relies on individual states and your 
criminal intelligence sharing laws. Like, in my state, I am not 
allowed to share that information between Federal and local law 
enforcement. Many other states, it is some patchwork of local 
state laws.
    However, we have a good relationship with our fusion 
center. Just on Sunday afternoon, we received a joint 
information bulletin from the FBI, from the Department of 
Homeland Security, talking about the Mall of America and this 
video that I referenced earlier. That is information we need. 
It was timely, it was accurate, it was to the point, and it 
helped us prepare or better prepare.
    Mr. Gohmert. And actually, you bring up, Mr. Steinbach, the 
issue of vulnerabilities. I had seen an article, February 
fourteenth, again Breitbart reported, that the border patrol 
agents catch Middle Eastern man sneaking into Texas and that is 
the most I had seen reported. But my sources indicate that 
actually he was from Iraq, he spoke fluent Russian, and that 
supposedly all he would say about his occupation is that he 
trained people. Does your counterterrorism division get word 
when people like that from countries where there is radical 
Islam at play, do you get word when those type of situations 
arise? Do you get a chance to question someone like--
    Mr. Steinbach. Yes, sir.
    So I would say, going back to the fusion center piece, just 
to kind of show that type, we have over 100 agents and analysts 
sitting in fusion centers. We have got 57 of our fusion centers 
have access to FBI databases sitting there. That information 
starts generically at the local level and is pushed to us.
    So in the case of the gentleman you are talking about, that 
would be classified as a ``special interest alien.'' Those 
individuals coming from countries of concern that need greater 
scrutiny to look towards, you know, what are their true 
motivations and intentions for trying to sneak across the 
border.
    Mr. Gohmert. Okay. Did you know about this particular Iraqi 
individual that trains people that speaks Russian?
    Mr. Steinbach. I, myself, did not personally.
    Mr. Gohmert. Okay. All right.
    Well--yes?
    Ms. Jackson Lee. May I? I have just----
    Mr. Gohmert. I yield to the gentle lady from Texas.
    You and I are the only ones left, so certainly. I doubt 
that since I would object that there is any other objection. So 
unanimous consent, you may.
    Ms. Jackson Lee. The gentleman is very kind. First, my 
appreciation to the Chairman for his steady line of 
questioning. We have worked together on a number of issues. And 
then, my appreciation. Mr. Chairman, I think you were here when 
I noted that Sheriff Stanek was here last week and was quick to 
accept our response, or our invitation to come back again to 
Washington. We know we might love it, and I am smiling with 
that, but we know that our visitors have work at home and we 
appreciate that.
    We thank Mr. Steinbach for his years of service.
    So let me just have these quick questions. I ask a question 
about women and the increasing recruitment of women and their 
adherence to extremism which has made a very big point in our 
meetings last week. So I want to make sure of that there is a 
different approach to how men are recruited and sometimes a 
different approach to women even though the practice is 
empowerment, excitement. Have you begun to look at that 
distinctiveness of the recruitment of women?
    Sheriff Stanek?
    Sheriff Stanek. Yeah, Mr. Chairman and Congresswoman, we 
have. In fact, I have had several conversation with a young 
Somali woman in Minnesota, very active, named Fartun Weli who 
serves on the sheriff's community advisory board. She is very 
engaged with the community. In addition, we meet roundtable of 
Somali women. Like I said, many of them are moms and they 
understand what is happening with their young people and what 
is driving and motivating them. They are the key at the end of 
the day to a lot of our outreach efforts with the community 
itself.
    Ms. Jackson Lee. So I will finish with Mr. Steinbach, but 
my final question to you is: You have been in law enforcement 
for 32 years and you were obviously serving during the heinous 
acts of 9/11, do you feel that we are better communicators and 
exchangers of information and intelligence today between local 
and state and Federal than we were pre-9/11 or 9/11?
    Sheriff?
    Sheriff Stanek. Yeah, Mr. Chairman and Congresswoman, I 
absolutely do.
    You know, there was a time when we would have been at 
opposite ends of this table. Not anymore. Federal law 
enforcement agencies like the FBI and DHS are full partners 
with local law enforcement. I represent the Nation's sheriffs. 
I was impressed that the congressman knew Sheriff Bouchard who 
is my mentor, Sheriff Garcia from your county, and many of the 
others who serve here. We do it for the right reason every day, 
but we work hand-in-hand with our Federal partners. We may be 
the boots on the ground but we can not do it alone. We need 
what they have and they have been very willing, whether it is 
Director Mueller or Director Comey, to come to the table and 
provide that to us.
    Thank you.
    Ms. Jackson Lee. Mr. Steinbach, I will finish the 
courtesies of the Chairman, first of all, thank you very much, 
Sheriff. First of all, to say that I would hope that if 
Congress gives Federal law enforcement more tools, such as for 
example, a thorough watch list and the no-fly list that we seek 
to make sure that it is thorough that that would be a helpful 
tool, even as it may be a large number or small number but 
always to be accurate, is a helpful tool. Is that not correct, 
Mr. Steinbach?
    Mr. Steinbach. Yes, ma'am. Of course. I think the more 
tools you can provide us, the better we are able to do our job. 
When you consider the evolving threat and the changing nature, 
I think the more tools are more important for us.
    Ms. Jackson Lee. I appreciate that.
    Then, I would just ask you this simple question. I think 
you were certainly serving this country pre-9/11 and now you 
are continuing to serve the country. Would you say that the 
communication between all levels of law enforcement around this 
rising and increasing threat of terrorism is much better than 
it was when we couldn't follow the dots of a memo on a desk in, 
I believe, it was Minneapolis that did not connect the dots of 
individuals learning to take off and not land? Are we at a 
better point?
    Mr. Steinbach. I would say we are absolutely in a better 
place. And I will give you an example. From my perspective is, 
I don't have responsibilities necessarily for Minneapolis or 
Minnesota, yet I have met Sheriff Stanek on numerous occasions. 
We are not strangers. This is not the first time we have met. I 
have been at the major county sheriffs and major city chiefs. 
We have had interactions and we have a very robust 
relationship.
    I think the JTTF process is the right balance of pushing 
and we have learned as we have gone. Certainly, we have made 
mistakes but we continue to improve. I would say that our 
information sharing process is better than it has ever been. 
And I would challenge us that we need to continue to not only 
share but share real-time, at the speed of light----
    Ms. Jackson Lee. I agree.
    Mr. Steinbach [continuing]. Because that is how quickly the 
information has to get passed.
    Ms. Jackson Lee. My last point: Would you reaffirm that the 
outreach tactics, relationships, with these unique communities, 
in this instance the Somalian community but there is the large 
populations in places like Michigan and elsewhere, Texas, is 
important and are you tune-in to the new element of extremism 
among women, particularly women that can be attracted to the 
fight with ISIL?
    Mr. Steinbach. Yes, ma'am. That tool is invaluable.
    Ms. Jackson Lee. Pardon me?
    Mr. Steinbach. That tool is invaluable. You know, when you 
look into radicalization, it is a spectrum. It starts with 
someone with intellectual curiosity and it drives to a point 
where they have developed an intent where enforcement 
disruption is necessary. But, before you get to the point where 
law enforcement action is necessary through prosecution, 
through deportation, there is a whole piece to that at the 
local level; the sheriffs is involved in and in trying to 
change that intellectual curiosity and change course of that 
individual.
    Ms. Jackson Lee. And women and extremism?
    Mr. Steinbach. Women and extremism, it is a new phenomenon 
and ISIL has taken advantage of it. They still are a minority 
but they are a much larger minority than they were 2, 3 years 
ago. And so, it is a new for us.
    Ms. Jackson Lee. Mr. Chairman, you have been very kind. I 
want to thank the Judiciary Committee and particularly this 
Subcommittee for recognizing its duty and responsibility. And 
the issue of extremism among young women is an issue of concern 
to me and I hope that this Subcommittee and the full Committee 
can look collaboratively on this unique but growing phenomenon 
that has a capacity to expand and become extremely dangerous.
    So I thank the gentleman for his kindness. I yield back my 
time.
    Mr. Gohmert. I thank the gentle lady. The issue of 
communications was touched on eloquently. It brings to mind 
another couple of questions I wanted to ask Mr. Steinbach.
    Previously, you know, numerous times we have had Secretary 
of Homeland Security here. And I have seen emails discussing, 
and they were not classified, discussing Secretary Napolitano's 
hands-off----
    [Pause.]
    Mr. Gohmert [continuing]. List in reference to someone with 
known terrorist ties and that this individual, it turns out a 
man with known terrorist ties, foreigner, was on the 
secretary's personal hands-off list. Is your division ever 
consulted over people that, I don't know if I know Secretary 
Johnson has a hands-off list or not like apparently Secretary 
Napolitano did, but is your division ever consulted on people 
that may be put on a hands-off list by Homeland Security?
    Mr. Steinbach. So I am not aware of any hands-off list. I 
would say that we follow the intelligence, we follow the 
evidence. So if we identify information that suggests somebody 
is a member of supporting foreign terrorist organization 
radicalizing, we open a predicated investigation. That is a 
political move and we follow the intelligence to its logical 
conclusion. If that person is supporting a foreign terrorist 
organization, our job and our goal and our mission is to 
disrupt.
    Mr. Gohmert. Well, if someone is a member, associate of 
known terrorists, member of a terrorist organization, I would 
hope that your division would take notice of that. We had 
Secretary Napolitano testify and I asked her about a man, a 
foreigner, with--ties, a member of foreign terrorist group, 
being allowed to visit the White House and she didn't know 
anything about it. She said ``I can live with that as long as 
somebody in Homeland Security knows about it and is vetted--''
    [Pause.]
    Mr. Gohmert [continuing]. The individual and we had someone 
with those type ties that was cleared to visit the White House. 
Is the counterterrorism division ever consulted on people who 
may visit the White House who have ties to terrorist groups?
    Mr. Steinbach. Anybody coming to the United States is 
subject to a vetting process. The terrorist screening center, 
there is a multiagency process that reviews databases to ensure 
that----
    Mr. Gohmert. Are you talking about people coming legally 
into the United States?
    Mr. Steinbach. I mean, yes, sir.
    Mr. Gohmert. Okay.
    Mr. Steinbach. Yes, coming legally into the United States, 
there is a multiagency vetting process that reviews, to ensure 
that there are no ties that would suggest him or her a threat 
to the United States.
    Mr. Gohmert. Okay. So from that, do you know if 
counterterrorism division was consulted before a member of a 
terrorist organization was allowed to visit the White House?
    Mr. Steinbach. I don't know what incident you are talking 
about, sir, but----
    Mr. Gohmert. Okay----
    [Pause.]
    Mr. Steinbach. I would say that the process isn't to 
contact counterterrorism it is to contact the terrorist 
terrorist screening center, to go through the database checks. 
We review that, we are apart of that.
    Mr. Gohmert. And whose duty is it to notify you that such a 
person may be coming to the White House?
    Mr. Steinbach. Any individual who comes to the United 
States----
    Mr. Gohmert. Right.
    Mr. Steinbach [continuing]. Is required to obtain a VISA, 
some type of legal process to come to the United States. Once 
they go to the State Department for that legal process, it 
kicks in a number of checks that are automatic regardless----
    Mr. Gohmert. Okay. Well now, that raises a whole other 
question because I understood the FBI was, I believe it was 
first the Russians notified the CIA that they had evidence or 
concerns that Tsarvaev had been radicalized and when nothing 
was done, as far as they could tell, they notified the FBI that 
they had concerns Tsarvaev had been radicalized, of course I am 
talking about the Boston Bomber. Are you now saying that 
counterterrorism division would have been notified by either 
the CIA or the FBI that the Russians had concerns that Tsarvaev 
had been radicalized or did you guys ever take a look at 
Tsarvaev before the Boston Bombing?
    Mr. Steinbach. So I think it is well-known, sir, that we 
opened a guardian based on information provided to us by that 
foreign government. At the end of the day, when we looked at 
the information, it didn't lead anywhere. And so, the guardian 
was closed.
    Mr. Gohmert. Were you aware of what investigation the FBI 
did before you closed that?
    Mr. Steinbach. Absolutely. There is a process before we 
close----
    Mr. Gohmert. Oh, I know. Director Mueller testified. They 
didn't go to the mosque to talk--they went to the mosque but it 
was under their outreach program. They never went to the mosque 
that was started by convicted terrorist Alamoudi to see if 
anybody there had any idea whether Tsarvaev had been 
radicalized, was he reading Qaeda, was he reading things that 
had been known to radicalize others? Nobody asked those 
questions at the mosque he was attending. And from what we can 
tell, the best we got from the FBI, they talked to the bomber 
and talked to his mother, but I never was able to get any other 
information that anybody else was really talked to thoroughly.
    They talked to him, they talked to his mom. They say they 
are not terrorists, they go to the mosque and the outreach 
program, never asked about are there any terrorist-type 
comments, radicalized comments, has he read milestones like 
Osama bin Laden and is now thinking more radical. Apparently, 
nobody asked those questions, so I am really sorry, but it 
doesn't give me comfort that you would close it based on the 
testimony we have had from other individuals of how little they 
did to stop the Boston Bombing but we appreciate it.
    And the record will be open for a period of--all Members 
will have 5 legislative days to submit additional written 
questions for the witnesses or additional materials for the 
record. And in fairness to both of you, if you think of 
something you would like to be part of the record, you would 
like for the Committee to know, than please provide that within 
5 days and we will include that as part of the record as well.
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Gohmert. Yes?
    Ms. Jackson Lee. I just want to acknowledge that I have a 
group of members who are former retired law enforcement and 
National Coalition of Law Enforcement Officers for Justice, 
Reform and Accountability who are in the audience. I just want 
to acknowledge them, the CLEO, and thank them for their 
presence here today.
    Thank you, Mr. Chairman.
    Mr. Gohmert. Yeah, and I know we both share not only 
appreciate their presence but thank them for what they do day-
in, day-out, so thank you for being here. Hearing nothing 
further, this hearing is adjourned.
    [Whereupon, at 12:10 p.m., the Subcommittee was adjourned.]

                                 [all]
</pre></body></html>
